(?
..+.llt.l......io
"~+'~4""icØ
                       DEPARTMENTOF
                       DEPARTMENT OFHEALTH
                                     HEALTH&. HUMANSERVICES
                                            &.HUMAN SERVICES                                                                    Office
                                                                                                                                 Officeof
                                                                                                                                        ofInspector


                                                                                                                                Washington,
                                                                                                                                           InspectorGeneral


                                                                                                                                 Washington,D.C.
                                                                                                                                                     General


                                                                                                                                             D.C. 20201

                                                                                                                                                   20201




                                                                         OCT 22882008

                                                                         OCT      2008

                    TO:
                    TO:                  Kerry Weems
                                         Kerry  Weems
                                         Acting Administrator
                                         Acting Administrator
                                         Centers  for Medicare
                                         Centers for           & Medicaid
                                                      Medicare & Medicaid Services
                                                                          Services


                    FROM:
                    FROM:
                                         Deputy
                                                 sephE.ve~
                                                 SephE.V~
                                         Deputy Inspector
                                                Inspector General
                                                          General for
                                                                   for Audit
                                                                       Audit Services
                                                                             Services


                    SUBJECT:
                    SUBJECT:             Review of
                                                of Colorado
                                                   Colorado Medicaid
                                                            Medicaid Mental
                                                                     Mental Health
                                                                            Health Capitation
                                                                                   Capitation and
                                                                                              and Managed
                                                                                                  Managed Care
                                                                                                          Care
                                         Program (A-07-06-04067)
                                         Program (A-07-06-04067)


                    Attached is an     an advance
                                            advance copy  copy ofof our
                                                                    our final
                                                                        final report
                                                                              report on
                                                                                     on the
                                                                                        the Medicaid
                                                                                            Medicaid Mental Health
                                                                                                              Health Capitation
                                                                                                                       Capitation and
                                                                                                                                    and
                    Managed Care Program (the managed care program) in Colorado.             Colorado. WeWe will
                                                                                                             will issue
                                                                                                                   issue this
                                                                                                                          this report
                                                                                                                               report to
                                                                                                                                      to
                    the   Colorado        Department
                    the Colorado Department of 
              of Health Care   Policy
                                                                              Policy  and
                                                                                      and Financing (the
                                                                                                    (the State
                                                                                                         State agency)
                                                                                                               agency)     within
                                                                                                                          within  5
                                                                                                                                  5
                    business
                    business days. days.     We
                                   We undertook thisundertook
                                                     review of 
  this review of the State agency's supplemental payments to cover
                    mental health services for foster care children in child placement agencies (CPA) in response to a
                    request from the Centers for Medicare &                & Medicaid Services
                                                                                         Services (CMS).
                                                                                                  (CMS).

                    In 1995, pursuant to State legislation and a waiver approved by CMS
                                                                                    CMS under section 1915(b)
                                                                                                       1915(b) of
                                                                                                               of
                    the Social Security Act, the
                               Securty Act,   the State
                                                  State agency
                                                        agency implemented
                                                               implemented the Colorado managed care
                                                                                                 care program.
                                                                                                      program. The
                    State agency contracted with mental health assessment and service agencies (MHASA) and paid
                    them a monthly capitation payment to provide all medically necessary mental health services to
                    each Medicaid-eligible
                          Medicaid-eligible enrollee.

                    According
                    According to the State agency,
                                             agency, the costs for mental health services for foster care children in
                    CPAs
                     CP As were inadvertentlyexcluded
                           were  inadvertently  excluded from
                                                           from the
                                                                  the initial
                                                                       initial capitation
                                                                               capitation rates
                                                                                          rates for
                                                                                                 for the
                                                                                                     the managed
                                                                                                         managed care
                    contracts.  The State
                     contracts. The  State agency
                                           agency stated
                                                   statedthat
                                                           thatin
                                                                in 1998,
                                                                   1998, itit recognized
                                                                              recognized this
                                                                                           this oversight and
                                                                                                          and incorporated
                                                                                                              incorporated
                    these costs
                    these costs into the capitation rates.
                                                    rates.

                    The     State
                     The State  agencyagency      claimed
                                       claimed Federal financialFederal
                                                                 paricipationfinancial
                                                                              from Medicaid participation
                                                                                            to cover a portion of from
                                                                                                                  
     Medicaid to cover a portion of thethe
                    costs
                     costs of of
                               
   these
                                    these services.
                                             services. However, the State agency asserted that subsequent enrollment increases                      increases
                    placed       unanticipated          stresses
                     placed unanticipated stresses on fuding for     on   funding      for   the   managed         care program.
                                                                                                                        program.    Therefore,  beginning
                                                                                                                                                beginning inin
                    April
                     April 2001,
                               2001, the  the State
                                               State agency
                                                         agency beganbegan making
                                                                               making supplemental payments        payments (i.e.,
                                                                                                                             (i.e., payments
                                                                                                                                    payments inin addition
                                                                                                                                                  addition to
                                                                                                                                                            to
                    the
                     the monthly
                           monthly capitation
                                           capitation payments)
                                                           payments) to      to the
                                                                                 the MHASAs
                                                                                       MHASAs to        to cover
                                                                                                            cover mental
                                                                                                                     mental health
                                                                                                                            health services
                                                                                                                                     services for
                                                                                                                                              for foster
                                                                                                                                                  foster care
                                                                                                                                                         care
                    children
                     children in     in CPAs.
                                         CP As.



                    From
                     FromApril
                            April 1,1,2001,
                                      2001, through November
                                                    November 30,2004, the    the State
                                                                                 State agency made supplemental payments
                                                                                                                     payments
                    totaling $24,000,947     ($12,227,602   Federal  share)  to the MHASAs    to cover mental
                     totaling $24,000,947 ($12,227,602 Federal share) to the MHASAs to cover mental health      health
                    services
                     servicesfor
                              forfoster
                                   foster care
                                          carechildren
                                               children in
                                                         in CPAs.
                                                            CP As. In
                                                                    In November
                                                                       November 2004,
                                                                                    2004, CMS
                                                                                           CMS directed
                                                                                                directed the
                                                                                                          the State
                                                                                                              State agency
                                                                                                                    agency to
                                                                                                                            to
                    stop
                     stopmaking
                           makingthe thepayments,
                                         payments,and
                                                   andthe
                                                        theState
                                                             Stateagency
                                                                   agencycomplied.
                                                                            complied. InIn November
                                                                                           November 2005,
                                                                                                     2005, CMS
                                                                                                             CMS disallowed
                                                                                                                    disallowed
Page 2 – Kerry Weems


the $487,390 Federal share of the supplemental payments for October and November 2004.
CMS requested that we review the remaining $23,026,167 ($11,740,212 Federal share) in
supplemental payments made from April 1, 2001, through September 30, 2004.

Our objective was to determine whether the supplemental payments for mental health services
provided to foster care children in CPAs for the period April 1, 2001, through September 30,
2004, were consistent with Federal and State requirements.

The supplemental payments that the State agency made for mental health services provided to
foster care children in CPAs were not fully consistent with Federal and State requirements. Of
the $23,026,167 ($11,740,212 Federal share) in supplemental payments made during our audit
period, $3,324,269 (Federal share) was unallowable because, contrary to Federal requirements,
the State agency did not obtain CMS’s approval of contracts covering the supplemental
payments from August 13, 2003, through the end of our audit period (September 30, 2004).

In addition, the State agency did not provide documentation to support its assertion that the
remaining $8,415,943 (Federal share) in supplemental payments was removed from the
capitation payments. Thus, we are setting aside, for CMS adjudication, the $8,415,943 (Federal
share) in potentially duplicate and therefore possibly unallowable supplemental payments.

We recommend that the State agency:

    •   refund $3,324,269 to the Federal Government for the Federal share of the unauthorized
        supplemental payments and

    •   work with CMS to resolve the $8,415,943 (Federal share) in supplemental payments for
        which the State agency did not provide documentation that the supplemental payments
        were not already included in the capitation payments.

In written comments on our draft report, the State agency disagreed with our findings and
recommendations. After reviewing the State agency’s written comments regarding the contracts,
we modified our report and removed the finding of unallowable costs related to the failure to
comply with State contract provisions. We also modified our report to set aside, rather than
question, the $8,415,943 in potentially unallowable supplemental payments. However, our
finding that the State agency made $3,324,269 in unallowable supplemental payments covering
the period from August 13, 2003, through September 30, 2004, remains unchanged.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through e-mail at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-06-04067.


Attachment
./..g~.~ DEPARTMENT OFOFH£ALTH                                                                              Olfce
                                                                                                            Olficeof
                                                                                                                   of Inspector
                                                                                                                       Inspector General
                         HEALTH& &HliMAN
                                   HllMAN SERVICES
                                                                                                                                 General
          DEPARTMENT                      SERVICES                                                          Offces
                                                                                                            OfficesofofAudit
                                                                                                                        AuditServices
                                                                                                                              Services

~ó,
 "
    ::\.

 'r'If\,jltl                                                                                                Region
                                                                                                            Region Vli
                                                                                                                   VlI
                                                                                                            601
                                                                                                            601 East
                                                                                                                East 12th
                                                                                                                      12th Street
                                                                                                                           Slreet
                                                                                                            Room
                                                                                                            Room 284A
                                                                                                                  284A

                                                             OCT ·:3 11 2008
                                                             OCT .:.3    2008                               Kansas
                                                                                                            Kansas City.
                                                                                                                   City. Missouri
                                                                                                                         Missouri 64106
                                                                                                                                  64106




               Report Number:
               Report          A-07-06-04067
                      Number: A-07 -06-04067


               Ms. Joan Henneberry
               Executive Director
               Colorado Department ofof Health Care        & Financing
                                               Care Policy &
               1570 Grant Street
                                  80203-1818
               Denver, Colorado 80203-1818

               Dear Ms. Henneberry:

               Enclosed is the U.S. Department of Health
               Enclosed is the U.S. Department of                   Health     andServices
                                                                          and Human Human  (HHS),Services
                                                                                                  Office of
 (IllIS), Office of Inspector
                                                                                                                                            ',..-r..
               General (DIG), final report entitled "Review of                    of Colorado Medicaid Mental Health Capitation
               andManaged
               and   Managed         Care
                          Care Program."     Program."
                                         We wil                 We
                                                forward a copy of 
 will forward a copy of this report to the HHS action official
               noted on the following page for review and any                   any action deemed
                                                                                               deemed necessary.

               The HHS action official will make
                                             make final
                                                    final determination
                                                          determination as
                                                                         as to
                                                                            to actions
                                                                               actions taken
                                                                                       taken on
                                                                                              on all
                                                                                                 all matters
                                                                                                     matters reported.
               We request that you respond
                                     respond to
                                             to this
                                                this official
                                                      offcial within 30 days from the date
                                                                                        date of
                                                                                             of this
                                                                                                this letter.
                                                                                                      letter. Your
               response should present any comments or additional information that you believe may have a
               bearing on
               bearng  on the final determination.
                                    determination.

               Pursuant
               Pursuant to theto  the principles
                               principles of             of the     Freedom
                                                              the Freedom of 
                 Act,S5 U.S.C.
                                                                                of Information Act,   U.S.C. §§ 552,
                                                                                                                552, as amended by
               Public Law 104-231, DIG            OIG reports generally are made available to the public to the extent the
               information         is  not   subject     totheexemptions
               information is not subject to exemptions in      
              in the Act (45 CFRpart
                                                                                              CFR part 5).
                                                                                                       5). Accordingly,
                                                                                                           Accordingly, the
                                                                                                                          the final
               report will be posted on the Internet at http://oig.hhs.gov.

               If you have any questions or comments about this report, please do not hesitate to call me at
               (816)
               (816) 426-3591,
                     426-3591, or
                                or contact Raylene Mason,
                                   contact Raylene Mason, Audit   Manager, at
                                                           Audit Manager,  at (816)
                                                                              (816) 426-3203
                                                                                    426-3203 oror through
                                                                                                  through e-mail
                                                                                                          e-mail
               atRaylene.Mason@oig.hhs.gov.     Please refer to report number
               at Raylene.Mason(foig.hhs.gov. Please                   number A-07-06-04067
                                                                               A-07-06-04067 in in all
               correspondence.

                                                                         Sincerely.
                                                                         Sincerelv.
                                                                    C-
                                                                         Patrick    'ogley
                                                                                 J. 'ogley

                                                                         Patrck J.
                                                                         Regional Inspector General
                                                                           for
                                                                           for Audit Services .


               Enclosure
Page 2 – Ms. Joan Henneberry


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF COLORADO
  MEDICAID MENTAL HEALTH
  CAPITATION AND MANAGED
       CARE PROGRAM




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-07-06-04067
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Colorado Department of Health
Care Policy and Financing (the State agency) administers its Medicaid program in accordance
with its CMS-approved State plan.

In 1995, pursuant to State legislation and a waiver approved by CMS under section 1915(b) of
the Act, the State agency implemented the Colorado Medicaid Mental Health Capitation and
Managed Care Program (the managed care program). The State agency contracted with mental
health assessment and service agencies (MHASA) and paid them a monthly capitation payment
to provide all medically necessary mental health services to each Medicaid-eligible enrollee.

According to the State agency, the costs for mental health services for foster care children in
child placement agencies (CPA) were inadvertently excluded from the initial capitation rates for
the managed care contracts. The State agency stated that in 1998, it recognized this oversight
and incorporated these costs into the capitation rates.

The State agency claimed Federal financial participation from Medicaid to cover a portion of the
costs of these services. However, the State agency asserted that subsequent enrollment increases
placed unanticipated stresses on funding for the managed care program. Therefore, beginning in
April 2001, the State agency began making supplemental payments (i.e., payments in addition to
the monthly capitation payments) to the MHASAs to cover mental health services for foster care
children in CPAs.

From April 1, 2001, through November 30, 2004, the State agency made supplemental payments
totaling $24,000,947 ($12,227,602 Federal share) to the MHASAs to cover mental health
services for foster care children in CPAs. In November 2004, CMS directed the State agency to
stop making the payments, and the State agency complied. In November 2005, CMS disallowed
the $487,390 Federal share of the supplemental payments for October and November 2004.
CMS asserted that the payments were not allowable because they were not included in the
actuarial certification of the capitation rates under the managed care program and because CMS
had not approved contracts covering these payments, as required by Federal regulations. The
State agency appealed CMS’s disallowance to the U.S. Department of Health and Human
Services Departmental Appeals Board (the Board). On May 23, 2007, the Board upheld CMS’s
disallowance. CMS requested that we review the remaining $23,026,167 ($11,740,212 Federal
share) in supplemental payments made from April 1, 2001, through September 30, 2004.




                                                i
OBJECTIVE

Our objective was to determine whether the supplemental payments for mental health services
provided to foster care children in CPAs for the period April 1, 2001, through
September 30, 2004, were consistent with Federal and State requirements.

SUMMARY OF FINDINGS

The supplemental payments that the State agency made for mental health services provided to
foster care children in CPAs were not fully consistent with Federal and State requirements. Of
the $23,026,167 ($11,740,212 Federal share) in supplemental payments made during our audit
period, $3,324,269 (Federal share) was unallowable because, contrary to Federal requirements,
the State agency did not obtain CMS’s approval of contracts covering the supplemental
payments from August 13, 2003, through the end of our audit period (September 30, 2004).

In addition, the State agency did not provide documentation to support its assertion that the
remaining $8,415,943 (Federal share) in supplemental payments was removed from the
capitation payments. Thus, we are setting aside, for CMS adjudication, the $8,415,943 (Federal
share) in potentially duplicate and therefore possibly unallowable supplemental payments.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $3,324,269 to the Federal Government for the Federal share of the unauthorized
        supplemental payments and

    •   work with CMS to resolve the $8,415,943 (Federal share) in supplemental payments for
        which the State agency did not provide documentation that the supplemental payments
        were not already included in the capitation payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our findings and
recommendations. The State agency said that it amended its contract verbally, as evidenced by
its conduct and the conduct of its contractors. Moreover, the State agency said that it was in the
process of submitting revised contracts to the State Controller for approval.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s written comments regarding the contracts, we modified our
report and removed the finding of unallowable costs related to the failure to comply with State
contract provisions. We also modified our report to set aside, rather than question, the
$8,415,943 in potentially unallowable supplemental payments for the period April 1, 2001,


                                                 ii
through August 12, 2003, because the State agency did not provide documentation to support its
assertion that the supplemental payments were not already included in the capitation payments.
Our finding that the State agency made $3,324,269 in unallowable supplemental payments
covering the period from August 13, 2003, through September 30, 2004, remains unchanged.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Colorado Mental Health Services Program .........................................................1
              Supplemental Payments Covering Mental Health Services for
                Foster Care Children in Child Placement Agencies .......................................2
              Actions Leading to Disallowance of Supplemental Payments ............................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          UNALLOWABLE SUPPLEMENTAL PAYMENTS ....................................................4
              Federal Regulations and Departmental Appeals Board Ruling ...........................4
              State Payments Made Without Centers for Medicare & Medicaid
                 Services Approval...........................................................................................5

          POTENTIALLY UNALLOWABLE SUPPLEMENTAL PAYMENTS........................5
               Approved Federal Waiver and Federal Regulations............................................5
               Potential Duplication of Payments.......................................................................6

          FEDERAL AND STATE REQUIREMENTS NOT FOLLOWED ................................6

          RECOMMENDATIONS.................................................................................................6

          STATE AGENCY COMMENTS....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7

APPENDIXES

          A – COLORADO SUPPLEMENTAL PAYMENTS

          B – STATE AGENCY COMMENTS




                                                                    iv
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. Under section 1915(b) of the Act, the State may
request that CMS grant waivers of certain requirements of the Act. 1

In Colorado, the Department of Health Care Policy and Financing (the State agency) administers
the Medicaid program. 2 The Federal Government pays its share of the State’s Medicaid
expenditures according to a formula that yields the Federal medical assistance percentage
(FMAP). During our audit period, the FMAP ranged from 50 to 52.95 percent.

Colorado Mental Health Services Program

Before 1995, Medicaid beneficiaries in Colorado received mental health services through either a
fee-for-service system or health maintenance organizations. To achieve cost savings, the
Colorado General Assembly authorized the State agency to provide comprehensive mental health
services to Medicaid beneficiaries through a capitated managed care program. Initially set up on
a pilot basis, the program was expanded statewide in 1995.

To implement the mental health managed care program, the State agency requested a
section 1915(b) waiver from CMS. CMS approved the waiver, allowing the State agency to
implement the Colorado Medicaid Mental Health Capitation and Managed Care Program (the
managed care program). Under the managed care program, the State agency contracts with
several mental health assessment and service agencies (MHASA), which operate in specific
areas of the State. 3 The State agency prepays a monthly capitation payment to each MHASA for
each enrolled Medicaid beneficiary. In return, the MHASA supplies all medically necessary
mental health services to the enrollee. The State agency pays the MHASA regardless of whether
the enrollee receives services during the period of coverage.


1
 Section 1902 of the Act mandates specific requirements that States must meet in administering their Medicaid
programs, including (but not limited to) a Medicaid beneficiary’s right to choose a medical services provider. Under
section 1915(b), CMS may grant the States waivers of certain requirements of section 1902, including the choice of
providers.
2
 The Colorado Department of Human Services administered the Medicaid program until April 2004, when
responsibility transferred to the Department of Health Care Policy and Financing. In this report, the term “State
agency” refers to either entity, depending on the period under discussion.
3
    In 2004, MHASAs became known as behavioral health organizations.

                                                          1
Supplemental Payments Covering Mental Health Services for Foster Care Children in
Child Placement Agencies

According to the State agency, the costs for mental health services for foster care children in
child placement agencies (CPA) were inadvertently excluded from the initial capitation rates for
the managed care contracts. 4 The State agency stated that in 1998, it recognized this oversight
and incorporated these costs into the capitation rates.

The State agency claimed Federal financial participation from Medicaid to cover a portion of the
costs of these services. However, the State agency asserted that subsequent enrollment increases
placed unanticipated stresses on the funding for the managed care program. Therefore,
beginning in April 2001, the State agency began making supplemental payments (i.e., payments
in addition to the monthly capitation payments) to the MHASAs to cover mental health services
for foster care children in CPAs. From April 1, 2001, through November 30, 2004, the State
agency made supplemental payments totaling $24,000,947 ($12,227,602 Federal share) to the
MHASAs.

Actions Leading to Disallowance of Supplemental Payments

In April 2004, CMS Region VIII reviewed the State agency’s payments to the MHASAs,
including the supplemental payments covering mental health services for foster care children in
CPAs. In November 2004, CMS directed the State agency to stop making the payments. In
November 2005, CMS disallowed the $487,390 Federal share of the supplemental payments for
October and November 2004. CMS asserted that the payments were not allowable because they
were not included in the actuarial certification of the capitation rates under the managed care
program and because CMS had not approved contracts covering these payments. 5

In Colorado’s statewide single audit for the State fiscal year ending June 30, 2004, the Colorado
State Auditor’s office reported that it could not substantiate that the amount paid to a MHASA
for mental health services for foster care children in CPAs was appropriate and allowable under
Medicaid requirements. The State agency was unable to provide the State Auditor’s office with
documentation for the methodology it used to determine the amount paid to this MHASA and
agreed with the audit finding.

The State agency complied with CMS’s directive to stop making the supplemental payments but
appealed the disallowance to the U.S. Department of Health and Human Services Departmental
Appeals Board (the Board). On May 23, 2007, the Board upheld CMS’s disallowance. CMS
requested that we review the remaining $23,026,167 ($11,740,212 Federal share) in
supplemental payments made from April 1, 2001, through September 30, 2004.




4
 A CPA is a person or an organization that places or arranges for placement of any child under the age of 16 into
foster care or adoption.
5
 Actuarial certification and contract approval are required by Federal regulations at 42 CFR § 438.6(c)(2) and
42 CFR § 438.6(a), respectively.

                                                         2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the supplemental payments for mental health services
provided to foster care children in CPAs for the period April 1, 2001, through
September 30, 2004, were consistent with Federal and State requirements.

Scope

Our audit covered the period from April 1, 2001, through September 30, 2004. We reviewed the
$23,026,167 ($11,740,212 Federal share) in supplemental payments that the State agency made
to MHASAs to cover mental health services provided to foster care children in CPAs.

We limited our internal control review to the procedures that the State agency followed in
administering its managed care program. We also considered the analysis of internal controls
included in the 2004 State Auditor’s report. We did not review the State agency’s controls over
its computerized payment system.

We conducted fieldwork at the State agency in Denver, Colorado.

Methodology

To accomplish our objective, we:

    •   reviewed Federal and State laws and regulations, program guidance, contractual
        documents, the State plan, and the section 1915(b) waiver;

    •   reviewed the Board’s May 2007 decision, as well as documentation that CMS and the
        State agency filed with the Board;

    •   reviewed the 2004 State Auditor’s report, which included a finding pertaining to
        supplemental payments covering mental health services for foster care children in CPAs;

    •   reviewed records and interviewed personnel from the State agency to (a) verify that
        mental health services for foster care children in CPAs were paid by a supplemental
        payment separate from the CMS-approved capitation payment and (b) determine
        whether the State agency had removed costs associated with mental health services for
        foster care children in CPAs from the capitation rates;

    •   interviewed CMS regional personnel and obtained documentation pertaining to both the
        approved capitation payment method for mental health services and the supplemental
        payments;

    •   analyzed data from the State Medicaid Management Information System to identify the
        supplemental payments made to the MHASAs for mental health services for foster care
        children in CPAs;

                                               3
     •   reconciled the State agency’s supplemental payment amounts to the Federal Medicaid
         Statistical Information System and to State agency financial transaction requests for
         payments to the MHASAs; and

     •   reconciled the State agency’s supplemental payments to the MHASAs’ documentation.

We calculated the Federal share of the supplemental payments using the FMAP applicable to
each timeframe within our audit period (ranging from 50 to 52.95 percent).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The supplemental payments that the State agency made for mental health services provided to
foster care children in CPAs were not fully consistent with Federal and State requirements. Of
the $23,026,167 ($11,740,212 Federal share) in supplemental payments made during our audit
period, $3,324,269 (Federal share) was unallowable because, contrary to Federal requirements,
the State agency did not obtain CMS’s approval of contracts covering the supplemental
payments from August 13, 2003, through the end of our audit period (September 30, 2004).

In addition, the State agency did not provide documentation to support its assertion that the
remaining $8,415,943 (Federal share) in supplemental payments was removed from the
capitation payments. Thus, we are setting aside, for CMS adjudication, the $8,415,943 (Federal
share) in potentially duplicate and therefore possibly unallowable supplemental payments.

These errors occurred because the State agency did not follow Federal and State requirements in
the administration of its Medicaid managed care program.

UNALLOWABLE SUPPLEMENTAL PAYMENTS

Federal Regulations and Departmental Appeals Board Ruling

Pursuant to Federal regulations (42 CFR § 438.6(a)), which were implemented on
August 13, 2003, the CMS regional office must “review and approve all . . . PIHP [prepaid
inpatient health plan] . . . contracts . . . .” 6

The State agency appealed CMS’s disallowance of the October and November 2004
supplemental payments to the Board. On May 23, 2007, the Board, in Decision No. 2085,
upheld CMS’s disallowance of the supplemental payments for October and November 2004
6
 When these Federal regulations were promulgated on August 13, 2002, States were initially given until
June 16, 2003, to fully comply with the provisions. This effective date was subsequently changed to
August 13, 2003.


                                                        4
($487,390 Federal share). The Board ruled that the State agency had violated 42 CFR § 438.6 by
failing to submit contracts for CMS’s approval of the supplemental payments. The Board
concluded “that these supplemental costs must be disallowed. CMS has never reviewed and
approved a contract that covers these costs pursuant to the regulations and consequently has
never found that these costs are necessary for the proper and efficient administration of the State
plan as the statute and regulations require.” 7

State Payments Made Without Centers for Medicare & Medicaid Services Approval

The State agency did not obtain CMS’s approval of the contracts covering the supplemental
payments as it was required to do, effective August 13, 2003. Submission of contracts for CMS
approval would have provided timely information that the supplemental payments were funding
mental health services for Medicaid beneficiaries who were already eligible for such services
under the managed care program. Because the State agency did not submit any contracts
addressing supplemental payments for CMS approval, CMS was not able to determine whether
the supplemental payments were “necessary for the proper and efficient administration of the
State plan as the statute and regulations require.” Consistent with the Board’s decision, none of
the payments on or after August 13, 2003, were eligible for Federal financial participation.

From April 1, 2001, through September 30, 2004, the State agency made a total of $23,026,167
($11,740,212 Federal share) in supplemental payments. Of this amount, $3,324,269 (Federal
share), which was paid beginning on August 13, 2003, was unallowable.

POTENTIALLY UNALLOWABLE SUPPLEMENTAL PAYMENTS

Approved Federal Waiver and Federal Regulations

As specified in the CMS-approved section 1915(b) waiver, the State agency entered into
contracts with the MHASAs to administer the mental health managed care program. The
contracts, which CMS reviewed as part of the waiver approval process, provided for monthly
prepaid capitation payments to the contracting MHASAs consistent with the section 1915(b)
waiver. The contracts required the contracting MHASAs to provide all medically necessary
mental health services to all Medicaid-eligible recipients, including foster care children.

The CMS “State Medicaid Manual,” section 2497.1, states that “Expenditures are allowable only
to the extent that, when a claim is filed, you have adequate supporting documentation in readily
reviewable form to assure that all applicable Federal requirements have been met.” Office of
Management and Budget (OMB) Circular A-87, section C(1)(a), states that to be allowable under
Federal awards, costs must “Be necessary and reasonable for proper and efficient performance
and administration of Federal awards.” Additionally, section C(1)(j), provides that costs must be
adequately documented.




7
 Colorado Department of Health Care Policy and Financing, DAB No. 2085 (May 23, 2007). The Board is referring
to 42 CFR § 438.1 (implementing section 1902(a)(4) of the Social Security Act).

                                                     5
Potential Duplication of Payments

The State agency did not provide documentation that the $8,415,943 (Federal share) in
supplemental payments was removed from the capitation payments.

The State agency acknowledged that its contracts with the MHASAs required the MHASAs to
provide all mental health services to all Medicaid-eligible recipients. However, the State agency
said that the costs of providing these mental health services to foster care children in CPAs were
inadvertently excluded from the capitation rates when the managed care program began in 1995.
According to the State agency, in 1998 it recognized this oversight and incorporated these costs
into the managed care capitation rates.

The State agency claimed Federal financial participation from Medicaid to cover a portion of the
costs of these services. However, the State agency asserted that subsequent enrollment increases
placed unanticipated stresses on the funding for the managed care program. The State agency
said that therefore, beginning in April 2001, it removed the costs associated with the mental
health services for foster care children in CPAs from the capitation rates and began paying for
those services through a series of supplemental payments to the MHASAs.

During our audit fieldwork, we requested that the State agency provide documentation that the
costs associated with the mental health services provided to foster care children in CPAs were
removed from the capitation rates. However, the State agency did not provide such
documentation. As a result, it could not support its assertion that the costs of providing mental
health services to foster care children in CPAs were reimbursed only once and therefore that all
Federal requirements had been met. In the absence of this documentation, we, in turn, could not
determine whether these costs were necessary and reasonable for proper and efficient
performance and administration of the Federal award.

FEDERAL AND STATE REQUIREMENTS NOT FOLLOWED

These errors occurred because the State agency did not follow Federal and State requirements in
the administration of its Medicaid managed care program. From April 1, 2001, through
September 30, 2004, the State agency made unallowable and potentially unallowable
supplemental payments totaling $23,026,167 ($11,740,212 Federal share) to MHASAs. (See
Appendix A.)

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $3,324,269 to the Federal Government for the Federal share of the unauthorized
        supplemental payments and

    •   work with CMS to resolve the $8,415,943 (Federal share) in supplemental payments for
        which the State agency did not provide documentation that the supplemental payments
        were not already included in the capitation payments.


                                                6
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our findings and
recommendations.

The State agency said that it amended its contract verbally, as evidenced by its conduct and the
conduct of its contractors. Specifically, the State agency said that “[g]eneral principles of
contract law do not require that contracts – or amendments to contracts – be made in writing”
and “contracts [can be] manifested by conduct.” The State agency said that contemporaneous
documentation exists which “memorialize[s] the parties’ intent to modify the payment [terms]”
and added that the “MHASAs’ continued provision of services reflects their assent to the change
of terms.” Moreover, the State agency said that it was in the process of submitting revised
contracts to the State Controller for approval.

The State agency also said that it removed the county-funded amount covering mental health
services provided to foster care children in CPAs from the capitation rate and replaced it with a
fixed supplemental payment. In addition, the State agency said that if the supplemental payment
was disallowed, it would present the revised actuarially certified capitation rate to CMS with
retroactive contract amendments.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s written comments regarding the contracts, we modified our
report and removed the finding of unallowable costs related to the failure to comply with State
contract provisions. We also modified our report to set aside, rather than question, the
$8,415,943 in potentially unallowable supplemental payments for the period April 1, 2001,
through August 12, 2003, because the State agency did not provide documentation to support its
assertion that the supplemental payments were not already included in the capitation payments.
Our finding that the State agency made $3,324,269 in unallowable supplemental payments
covering the period from August 13, 2003, through September 30, 2004, remains unchanged.
This finding is consistent with the Board’s decision that the supplemental payments for October
and November 2004 were ineligible for Federal financial participation because CMS had not
approved the contract.

During our audit fieldwork, we requested that the State agency provide documentation that
would support its assertion that it had removed the costs associated with the mental health
services provided to foster care children in CPAs from the capitation rates when it established
the fixed supplemental payments. After receiving the State agency’s written comments on our
draft report, we again requested that documentation. However, none of the information we
subsequently received from the State agency demonstrated that the costs were removed from the
capitation rates. As a result, the State could not support its assertion that the costs of providing
mental health services to foster care children in CPAs were reimbursed only once and therefore
that all Federal requirements had been met. Thus, we set aside the $8,415,943 in potentially
unallowable supplemental payments for the period April 1, 2001, through August 12, 2003, for
CMS adjudication.

                                                 7
APPENDIXES
                                                                                       APPENDIX A


                               COLORADO SUPPLEMENTAL PAYMENTS


                POTENTIALLY UNALLOWABLE SUPPLEMENTAL PAYMENTS
                       APRIL 1, 2001, THROUGH AUGUST 12, 2003

                                                              Supplemental Payments
                                                                            Federal
                             Period                 FMAP 1      Total        Share
                     04/01/2001-06/30/2001          50.00%    $1,588,105    $794,053
                     07/01/2001-09/30/2001          50.00%     1,788,206     894,103
                     10/01/2001-12/31/2001          50.00%     1,788,207     894,104
                     01/01/2002-03/31/2002          50.00%     1,788,207     894,104
                     04/01/2002-06/30/2002          50.00%     1,788,207     894,104
                     07/01/2002-09/30/2002          50.00%     1,809,558     904,779
                     10/01/2002-12/31/2002          50.00%     1,752,968     876,484
                     01/01/2003-03/31/2003          50.00%     1,561,262     780,631
                     04/01/2003-06/30/2003          52.95%     1,712,373     906,702
                     07/01/2003-08/12/2003          52.95%     1,089,479     576,879
                      Total Questioned                       $16,666,572  $8,415,943



                          UNALLOWABLE SUPPLEMENTAL PAYMENTS
                         AUGUST 13, 2003, THROUGH SEPTEMBER 30, 2004

                                                             Supplemental Payments 2
                                                                           Federal
                             Period                 FMAP1      Total        Share
                     08/13/2003-09/30/2003          52.95%    $ 464,748    $ 246,084
                     10/01/2003-12/31/2003          52.95%    1,394,226      738,243
                     01/01/2004-03/31/2004          52.95%    1,394,226      738,243
                     04/01/2004-06/30/2004          52.95%    1,644,226      870,618
                     07/01/2004-09/30/2004          50.00%    1,462,170      731,085
                      Total Questioned                       $6,359,595   $3,324,269




1
    FMAP = Federal medical assistance percentage.
2
    Does not add to total because of rounding.
APPENDIX B
  Page 1 of 5
APPENDIX B
  Page 2 of 5
APPENDIX B
  Page 3 of 5
APPENDIX B
  Page 4 of 5
APPENDIX B
  Page 5 of 5
